  DEPARTMENT OF HOMELAND SECURITY       DRAFT
            Office of Inspector General


                      Follow Up Review
                            of the
                 Port Security Grant Program




        Office of Inspections and Special Reviews
OIG-06-24                              February 2006
   FOR OFFICIAL USE ONLY
                                         (REVISED)
                                                                        Office of Inspector General

                                                                        U.S. Department of Homeland Security
                                                                        Washington, DC 20528




                                              Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibility to promote economy, effectiveness, and efficiency within the department.

This report assesses the actions DHS has taken to strengthen the administration and effectiveness of
the port security grant program since our previous report on the program. It is based on interviews
with employees and officials of relevant agencies and institutions, direct observations, and a review
of applicable documents.

The recommendations have been developed to the best knowledge available to the OIG, and have
been discussed in draft with those responsible for implementation. It is our hope that this report will
result in more effective, efficient, and economical operations. We express our appreciation to all of
those who contributed to the preparation of this report.




                                              Richard L. Skinner
                                              Inspector General
Contents

Executive Summary .............................................................................................................................. 1

Background ........................................................................................................................................... 2

Results of Review ................................................................................................................................. 4

           The Port Security Grant Program is More Strategic
            (Prior Report Recommendation Nos. 1, 12) .......................................................................... 4

           The Office of Infrastructure Protection Fills Necessary Role
            (Prior Report Recommendation No. 2).................................................................................. 6

           Improved Evaluation and Selection Process Reduces, but does not Eliminate,
             Concerns about Funding Unworthy Projects
             (Prior Report Recommendation Nos. 3 – 5) .......................................................................... 6

           Field Reviewers Scored Projects Differently
             (Prior Report Recommendation Nos. 6 – 8) ........................................................................ 14

           Private Sector Policy Should Address Prudence of Funding Certain Projects
             (Prior Report Recommendation No. 9)................................................................................ 16

           Balance of Unspent Funds is Declining
            (Prior Report Recommendation Nos. 10, 11) ...................................................................... 17

Recommendations............................................................................................................................... 18

Management Comments and OIG Analysis ....................................................................................... 19

Appendices
     Appendix A:             Purpose, Scope, and Methodology .......................................................................22
     Appendix B:             Management Response to Draft ...........................................................................24
     Appendix C:             Recommendations from OIG Report #OIG-10-05...............................................28
     Appendix D:             Major Contributors to This Report.......................................................................30
     Appendix E:             Report Distribution...............................................................................................31




                                           Follow Up Review of the Port Security Grant Program
Contents

Abbreviations
  AMSP     Area Maritime Security Plan
  COTP     Captain of the Port
  ERB      Executive Review Board
  GMS      Grants Management System
  IA       Office of Intelligence and Analysis
  IAIP     Information Analysis and Infrastructure Protection Directorate
  IP       Office of Infrastructure Protection
  MTSA     Maritime Transportation Security Act of 2002
  NRP      National Review Panel
  ODP      Office of Domestic Preparedness
  OGT      Office of Grants and Training
  OIG      Office of Inspector General
  SLGCP    Office of State and Local Government Coordination and Preparedness
  USCG     United States Coast Guard




                       Follow Up Review of the Port Security Grant Program
Executive Summary
                             In October 2005, Congress directed the Inspector General to review the steps
                             DHS has taken to comply with recommendations contained in the Inspector
                             General's January 2005 report, Review of the Port Security Grant Program
                             (OIG-05-10).1 In that report, our office made 12 recommendations to DHS to
                             address issues involving the strategic direction of the program, the evaluation
                             and selection of grant awards, funding private sector projects, the status of
                             funds, and the dichotomy between two approaches DHS used to fund projects
                             in the second round. Because five recommendations were fundamental to the
                             effectiveness of the program, we strongly encouraged DHS to implement our
                             recommendations before proceeding with the next round of port security
                             grants.2

                             DHS implemented our recommendations in time to improve the
                             administration and effectiveness of the fifth and most recent round of port
                             security grants, which totaled $142 million for 132 projects. DHS reshaped
                             the program to make it more strategic and more risk-based by: (1) directing
                             funds to the nation’s 66 highest risk ports using a risk-based formula and
                             tiering process; (2) modifying the eligibility criteria; (3) instituting a new
                             funding allocation model; and, (4) implementing a complex scoring
                             methodology to process and rank the results of the field and national reviews
                             as well as relative risk reduction data with more precision. The Office of
                             Infrastructure Protection (IP) became actively involved in the program
                             through its development of the risk-based formula, thereby filling an
                             important and much needed role. Grantees reduced the outstanding balance of
                             unspent funds from the first three rounds by more than $190 million since our
                             last report.

                             Despite these positive developments, DHS has not entirely eliminated the
                             issues that led to our recommendations. The revised selection and evaluation
                             process ranks all of the projects, but does not include a minimum score
                             threshold to differentiate unworthy projects from worthy ones. What the
                             actual scores imply about the merits of projects, especially the funded
                             projects, is discounted. We identified 20 projects that reviewers determined
                             did not meet national security priorities but were funded nonetheless. The
                             program also skipped over higher ranked projects to fund projects that it could
                             fully fund. In addition, a handful of awarded projects reflected incomplete

1
    H.R. Rep. No. 241, 109th Cong., 1st Sess., at 40 (2005).
2
    Recommendations 1, 3-4, 6, and 9.

                                    Follow Up Review of the Port Security Grant Program

                                                           Page 1
             scores or data. Field reviewers’ perceptions about projects, as reflected in
             their scores and rankings, suggest that they still have widely varying opinions
             about how well projects are satisfying program criteria. Finally, although
             DHS clarified its policy on funding private sector projects, this policy falls
             short of addressing the prudence of funding certain projects.

             We closed the 12 recommendations in our first report based upon evidence
             provided by DHS showing satisfactory corrective actions. In this review, we
             note that DHS continues to address the issues that we raised. However, our
             work on the present report suggests that there are additional actions that DHS
             should take to improve the administration and effectiveness of the port
             security program.

             We are recommending that the Under Secretary for Preparedness:

             1. Establish a minimum score threshold under the new selection and
                evaluation process that projects must meet. Funding in the top three tiers
                not used as a result of implementing this minimum threshold should be
                reallocated to a lower tier;
             2. Modify the Grants Management System (GMS) or the National Review
                Panel (NRP) internal database to require NRP members to enter a reason
                for adjusting a field review score;
             3. Seek more consistent scoring by field reviewers;
             4. Conduct a “pre-audit” of proposed grant award decisions; and,
             5. Require private sector applicants to demonstrate how a federal grant
                would enhance their own security investments as a condition to receiving
                a grant.


Background
             The purpose of the port security grant program is to reduce the vulnerability
             of American ports to potential terrorist attacks by enhancing facility and
             operational security. To date, the program has awarded over $700 million in
             five rounds of grants. During our first review of the program, conducted
             between December 2003 and May 2004, we reviewed the design and goals of
             the program; potential duplication with other programs; the roles and
             responsibilities of participating agencies; and, the grant evaluation and
             selection process used during the second and third rounds of grants. The
             fourth round of grants began on September 13, 2004, after we concluded our
             fieldwork.

                   Follow Up Review of the Port Security Grant Program

                                         Page 2
                           On January 28, 2005, our office issued its report, Review of the Port Security
                           Grant Program, OIG-05-10. The report contained 12 recommendations to
                           improve the design, management and oversight of the program (see
                           Appendix B). DHS agreed with 11 of the 12 recommendations, and advised
                           that it intended to use a new risk-based formula to award the FY 2005 port
                           security grants.3 On May 17, 2005 the Inspector General testified before
                           Congress on the status of DHS’ efforts to address our recommendations.4

                           We continued to study how DHS modified this program, particularly the
                           criteria that it would use to make grant award decisions, and whether those
                           modifications would satisfy our recommendations. On July 1, 2005, based on
                           DHS’ action plan in implementing the recommendations, documentation
                           pertaining to the revised grant application review process, and information
                           obtained during discussions with program officials, we determined that DHS’
                           Office of State and Local Government Coordination and Preparedness
                           (SLGCP) had sufficiently responded to all 12 of the recommendations in our
                           report.5 SLGCP’s Office of Domestic Preparedness (ODP), which later
                           became the Office of Grants and Training (OGT), assumed administrative
                           responsibility for the program beginning with round five.6

                           On July 14, 2005, Senator Kerry introduced legislation to require the OIG to
                           issue a report to the Homeland Security Committees of the House and the
                           Senate on steps SLGCP has taken to comply with the recommendations
                           contained in our report.7 Anticipating the enactment of the Homeland
                           Security Appropriations Act of 2006, the OIG initiated a review of DHS’
                           corrective actions and changes to the program on September 6, 2005.8

3
  On May 12, 2005, DHS announced the availability of $142 million for round five of the port security grant program.
Actual grant awards totaled $141,969,968. An additional $3,887,661was awarded specifically for ferry security through
the Transit Security Grant Program.
4
  Hearing on Port Security Before the Senate Comm. on Commerce, Science, and Transportation, 109th Cong., 1st Sess.
(2005) (statement of Richard L. Skinner, Acting Inspector General, Office of Inspector General, Dept. of Homeland
Security).
5
  On July 13, 2005, Secretary Chertoff reorganized DHS. As part of that reorganization, SLGCP was divided. The
Office of State and Local Government Coordination was realigned under the Assistant Secretary for Congressional and
Intergovernmental Affairs. The Office of Domestic Preparedness was renamed the Office of Grants and Training, which
is led by an Assistant Secretary who reports to the Under Secretary for Preparedness.
6
  The Transportation Security Administration, along with the Maritime Administration and the U.S. Coast Guard
(USCG) managed the first four rounds of the Port Security Grant Program. Responsibility for the program was
transferred to SLGCP prior to round five. SLGCP carried out the OIG’s previous recommendations.
7
  Amendment No. 1162 to H.R. 2360, 109th Cong., 1st Sess., at 40 (2005), DHS Appropriations for FY 2006.
8
  H.R. Rep. No. 241, 109th Cong., 1st Sess., at 40 (2005). The report directed the Inspector General to “review the steps
the Department has taken to comply with recommendations contained in the Inspector General’s report on port security

                                  Follow Up Review of the Port Security Grant Program

                                                         Page 3
Results of Review
    The Port Security Grant Program is More Strategic (Prior Report
    Recommendation Nos. 1, 12)
                          Previously, we reported that the Port Security Grant Program’s strategic
                          effectiveness was hindered by attempts to reconcile three competing
                          requirements or approaches: the competitive program mandated by Congress
                          through its appropriations; the Maritime Transportation Security Act’s
                          (MTSA) grant authority (which was not funded through appropriations) and
                          risk-based decision-making. These competitive approaches were clouding
                          the direction of the program. We recommended that SLGCP determine to
                          what extent the program should incorporate MTSA requirements; and, seek
                          clarification on the legislative intent for the program (sector-specific vs.
                          larger infrastructure protection initiatives) as well as construct a unified
                          program (policy, purpose, process, and eligibility) to comply with that intent.
                          We subsequently closed these recommendations based on SLGCP’s plan to
                          redesign the program using a risk-based prioritization strategy that retained
                          competition, included MTSA requirements where possible, and incorporated
                          more risk data into its grant decision-making.

                          During the period covered by our first review and for the grants covered by
                          this follow up review, Congress had not funded the MTSA port security
                          grant program.9 Nevertheless, because applicants must be MTSA-regulated
                          entities, OGT expanded authorized program expenditures to include MTSA-
                          compliant security measures such as canine explosive detection programs,
                          which would otherwise not have been funded. OGT did not incorporate
                          MTSA features such as its 25 percent cash match requirement. Program
                          officials reported receiving little feedback from Congress on the direction of
                          round five. OGT redesigned the program by intertwining a “fair and
                          equitable” process of evaluating grant applications with a funding allocation
                          model that captures the essential elements of risk: vulnerability,


grants (OIG-05-10) [and submit a report] to the House and Senate Committees on Appropriations; the Senate Committee
on Commerce, Science, and Transportation; the Senate Committee on Homeland Security and Government Affairs; and
the House Committee on Homeland Security no later than February 10, 2006.” Congress passed the DHS
Appropriations Act of 2006 on October 18, 2005. Pub. L. No. 109-90, 119 Stat. 2064 (2005).
9
  On October 18, 2005, for the first time, Congress did fund the MTSA. The changes that action may have on future port
security grants were not within the scope of this review.

                                 Follow Up Review of the Port Security Grant Program

                                                        Page 4
                          consequence, and threat.10 OGT’s objectives under the new approach were
                          twofold: (1) allocate grant dollars roughly in proportion with the overall risk
                          environment at the eligible port areas; and (2) select projects for funding that
                          presented the best risk reduction potential against high-priority threats. The
                          intent was to raise the overall bar of preparedness for the national priority
                          threats across all eligible port areas, while still targeting dollars to the high-
                          priority risk environments.11

                          The new prioritization strategy included: (1) using a complex risk algorithm
                          to identify 66 ports from a list of 129 ports across the country; (2) dividing
                          the 66 ports into risk tiers; (3) allocating funds to each tier; (4) revising the
                          evaluation criteria; and (5) employing a complex scoring methodology to
                          optimize the selection of projects within tiers. Program officials considered
                          three options before deciding how to allocate funds. We studied these
                          changes, particularly, the underlying data in the risk formula used to identify
                          and rank the 66 ports, and the program’s new model for allocating funds to
                          the ports. Program officials synchronized funding allocations with the
                          results of the risk formula. These are major enhancements that substantially
                          improve the strategic effectiveness of the program.

                          Program officials advised that DHS is considering whether to expand the
                          number of eligible ports to 118. This contradicts the strategic direction OGT
                          established in round five. However, if the new risk formula, scoring
                          methodology, and number of tiers remain intact, extending eligibility to 52
                          additional ports should not affect the program’s strategic focus because of its
                          competitive nature. Furthermore, these new ports would have to compete
                          against the 41 existing Tier IV port areas. In round five, OGT only funded
                          projects from half of the 66 ports.

                          As the program continues to evolve, an important challenge that DHS should
                          undertake is the measurement of its impact. Because DHS has awarded over
                          $700 million in five rounds of grants, it has “raised the overall bar of
                          preparedness,” but it is not clear that DHS knows how much actual risk
                          reduction has been achieved. Data contained in area maritime security
                          plans, facility security plans, and port-wide vulnerability assessments may
                          serve as valuable measuring sticks in this evaluation.


10
   Public Law 108-334, 118 Stat. 1298 (2004), DHS Appropriations Act of 2005, stipulated that “$150,000,000 shall be
for port security grants, which shall be distributed under the same terms and conditions as provided for under Public Law
107-117, 115 Stat. 2230 (2002),” which called for a fair and equitable program.
11
   FY 2005 Port Security Grant Program Risk Tier Strategy, guidance from OGT.

                                  Follow Up Review of the Port Security Grant Program

                                                         Page 5
     The Office of Infrastructure Protection Fills Necessary Role (Prior Report
     Recommendation No. 2)
                          We reported that the program did not have the benefit of critical infrastructure
                          protection information developed by DHS’ former Information Analysis and
                          Infrastructure Protection Directorate (IAIP).12 Therefore, port security grants
                          were awarded without basic data about national port security priorities. We
                          recommended that SLGCP incorporate critical infrastructure and key asset
                          data from IAIP into the evaluation of proposed port security projects. Among
                          the changes to consider were adding an IAIP official to the Executive Review
                          Board (ERB); using the IAIP national asset database to identify critical
                          facilities in need of mitigation with a view toward soliciting proposals from
                          these facilities; and, collaborating with IAIP in an outreach program to
                          improve the quality of vulnerability assessments and proposals.
                          Subsequently, we closed this recommendation after confirming that SLGCP
                          was seeking IAIP’s assistance in the evaluation process and in the
                          development of a standardized risk assessment methodology for prioritizing
                          critical infrastructure and key asset information.

                          OGT’s program officials are leveraging expertise within the Office of
                          Infrastructure Protection (IP). IP made a significant contribution to the
                          redesign of the program by creating the risk-based formula for identifying and
                          ranking the eligible ports. The formula introduced consequence, vulnerability,
                          and threat information that reviewers in previous rounds did not have.
                          Program officials are planning to include more critical infrastructure data in
                          the future. IP analysts also participated on the National Review Panel (NRP).
                          IP’s increased participation is one of the program’s key developments, and a
                          good example for other infrastructure grant programs to emulate.

     Improved Evaluation and Selection Process Reduces, but does not Eliminate,
     Concerns about Funding Unworthy Projects (Prior Report Recommendation
     Nos. 3 – 5)
                          In rounds two and three, grant award decisions were made with the intent to
                          expend all available funding and spread funds to as many applicants as
                          possible. DHS funded projects that received lower scores from its

12
  At the time, IAIP consisted of two main offices, the Office of Information Analysis (IA) and the Office of
Infrastructure Protection (IP). When DHS reorganized in 2005, IA became the Office of Intelligence and Analysis. IP,
which retained its name, was moved to the Preparedness Directorate. The Assistant Secretary for Infrastructure
Protection leads IP.

                                 Follow Up Review of the Port Security Grant Program

                                                       Page 6
                           evaluators, raising questions about the merits of those projects. We
                           recommended that SLGCP consider changing the weighting of the
                           evaluation criteria, with greater emphasis placed on the criteria that reduce
                           critical vulnerabilities; cease the practice of funding projects that do not
                           meet the definition of a Priority I project, consider implementing a scoring
                           threshold that ensures that projects not meeting that threshold are not
                           funded; and, consider seeking a change in appropriations language to have
                           these grant funds designated as “no-year monies” to reduce the pressure to
                           fund lower ranked projects; and, require reviewers to document their
                           decisions in the Grants Management System (GMS), particularly when they
                           are inconsistent with recommendations from a lower level of review.13

                           Subsequently, we closed these recommendations because program officials
                           were planning to implement new criteria, incorporate a weighted approach in
                           evaluating projects, apply risk-based weightings in the selection of ports, and
                           abandon the “Priority I” designation. SLGCP concurred that reviewer
                           comments should be mandatory when there is disagreement between any of
                           the review levels. SLGCP said this would be a requirement in GMS as part
                           of the FY 2005 evaluation process. SLGCP was in the process of
                           developing enhanced field- and national-level review guidance.

                           In round five, OGT incorporated several substantive changes into the
                           application evaluation, selection, and award process. These changes
                           included creating risk tiers for strategic ports, revising eligibility criteria, and
                           implementing a new project scoring system.

                           First, OGT abandoned the Priority I, II, and III designations in favor of a
                           new methodology. For the first time, OGT identified, ranked, and tiered
                           ports based on risk, and addressed the need to target critical vulnerabilities
                           with greater transparency and less confusion. The tiers, which were
                           established using IP’s data and analysis, grouped eligible ports into four
                           categories according to the greatest security risks. OGT allocated more
                           funds to the nation’s highest risk ports (see Table 1). In round five, entities
                           within the respective tiers competed against each other for port security
                           grants.




13
  Prior to round five, reviewers divided projects into Priority I, Priority II, or Priority III projects. Priority I projects
were ranked the highest and funded. Priority II projects were acceptable, but the proposed approach did not have enough
information and they were not funded. Priority III projects were considered weak projects and not funded.

                                   Follow Up Review of the Port Security Grant Program

                                                           Page 7
                  Table 1: Round Five Funding Allocation to Tiers
       Tier        # of Ports       Total Amount for        Average Amount
                                            Tier                 per Port*
       Tier I            2                  $41,944,674             $20,972,337
      Tier II            3                  $20,747,921              $6,915,973
      Tier III          20                  $62,260,946              $3,113,047
      Tier IV           41                  $17,016,426                $415,034
    *This column reflects how much each port would have received if there was no
     competition and the funds were divided evenly amongst ports in each tier.

Second, OGT revised the project evaluation criteria, assigning extra weight
to projects that reduced three critical vulnerabilities constituting the greatest
threats to port security: improvised explosive devices (IEDs) delivered via
small craft, underwater, and in vehicles on ferries. OGT condensed the six
criteria used to evaluate projects in earlier rounds to four by eliminating the
criteria measuring the “extent of actions taken thus far” and whether “the
approach is comprehensive and detailed,” and clarifying the remaining
criteria. Reviewers scored projects using a scale of one (lowest) to five
(highest) for responsiveness (see Table 2).

                          Table 2: Field Review Scoring System
                                Criterion                                    Score
Risk reduction potential (national priority threat)                    20 pts*
  Prevention / detection of underwater IED attacks (10 pts)
  Prevention / detection of IED attacks by small craft (10 pts)
  Prevention / detection of vehicle borne IEDS on ferries (10 pts)
Consistency with Area Maritime Security Plan                           5 pts
Applicability to local security priorities                             5 pts
Potential risk reduction for least cost (cost effectiveness)           5 pts
Total possible score                                                   35 points
*The NRP subsequently awarded points for either a combination of underwater and small
craft attacks or vehicle borne IEDs, but not both.

The most critical criterion measured a project’s risk reduction potential (the
national priority threat) and accounted for a total possible score of 20 points,
or 57 percent of the field review score. The remaining criteria, comprising
15 points, measured local security priorities and cost. By weighting the
score in this manner, the program showed a preference for projects that
supported the national security priority.

Third, once the field and national reviews had scored and ranked the
projects, program officials passed the individual ratings through an



       Follow Up Review of the Port Security Grant Program

                             Page 8
                         extremely complex scoring system.14 The system calculated a preliminary
                         project score (PPS) by weighing the four criteria according to the following
                         formula:

                         (2 x Criterion 1) + (4 x Criterion 2) + (4 x Criterion 3) + (4 x Criterion 4)

                         Then the scoring system combined multiple calculations to produce a final
                         project score and ranking for every project. The final project score consisted
                         mostly of the PPS, but also included the priority score adjustment (the
                         project ranking relative to the Captain of the Port’s (COTP) top-ranked
                         project in each port), and the IP priority adjustments (the project’s port
                         ranking relative to the top-ranked port in each tier).

                         Program administrators should modify the new scoring system to better
                         distinguish worthy from unworthy projects

                         The sophisticated, and improved, scoring methodology used to rank all of
                         the projects during the evaluation and selection process should include a
                         minimum scoring threshold in order to distinguish worthy from unworthy
                         projects. The absence of a minimum scoring threshold and the practice of
                         funding “down the list” until funds are exhausted resulted in the program
                         funding projects that provided no national threat priority reduction or were
                         ranked below other projects. This raises concerns as to whether the scoring
                         system gave enough weight to the risk reduction criterion. A greater
                         concern, however, is that the process did not truly identify worthy projects
                         because the program did not establish a minimum standard that applicants
                         must meet in order to be eligible for funding. As we stated in our first
                         report, projects not meeting such a threshold should not be funded.

                         Program administrators ranked the projects but did not identify a score
                         within each tier that worthy projects had to attain to receive funding. OGT
                         funded projects as they were ranked until the tier’s designated funds were
                         exhausted (grant funds were not designated as “no-year monies.”) OGT also
                         made it a policy in round five to only fund projects in their entirety.
                         Consequently, OGT skipped over higher ranked projects in order to find
                         projects with costs that did not exceed the remaining funds.

                         The new scoring system reduces the weight given to the national priority
                         threat criterion from 57 percent of all four criteria constituting the risk

14
  OGT contracted with Digital Sandbox, an enterprise risk management software company, to develop the new project
scoring and ranking system.

                                Follow Up Review of the Port Security Grant Program

                                                      Page 9
                            reduction potential point total to 40 percent of the four criteria when
                            calculating the PPS. Diminishing the weight of the first criterion increases
                            the likelihood that a project receiving zero points could accumulate enough
                            points from the three remaining criteria, along with the COTP priority score
                            and IP’s port risk score, to bolster its ranking and receive funding. Of the
                            132 awarded projects, reviewers rated 20 projects “not applicable” or non-
                            responsive to any subcategory of the national priority threat.15 In some
                            cases, these projects with a score of zero for all three elements making up
                            the national priority threat reduction criterion received total scores as low as
                            seven or eight out of the possible 35 points. These projects received funding
                            totaling $29.3 million, more than 20 percent of the awarded grant funds.

                            Examples of awarded projects that received no points for national priority threat
                            reduction
                             Grant Recipient A, project #2, access control, grant: $65,000, score: 8.
                             The applicant proposed installation of card readers on critical buildings and upgrades
                             to the current access control system software to accommodate the “current proximity
                             card ID system.” The project scored zeros for all aspects of the national priority
                             threat, and twos and a four for the local security priorities. The field review team
                             provided little explanation for its scoring of this project, simply stating that the project
                             had a “limited impact in addressing AMSP priorities,” and was “limited in addressing
                             other priorities,” but that it “offer[ed] significant cost benefit.” Nonetheless, the field
                             recommended full funding. The NRP agreed with field comments, increased the
                             project’s rank by two, and did not elaborate. The project’s low responsiveness to
                             almost all criteria, in particular the heavily weighted national priority threat leads us to
                             question whether the scoring system is effective.

                             Grant Recipient B, project #3, secondary gates, grant: $326,500, score: 12.
                             The applicant proposed installation of crash-proof gates and crash barriers at all
                             secondary gates to deter vehicle and pedestrian attacks. The applicant stated that the
                             gates are not necessarily open at all times, but are used frequently. The field review
                             team stated that this project would not have any impact on the national priority threat.
                             The project scored well on local security priorities and on cost benefit. The NRP
                             agreed with the field’s assessment, and increased the project’s rank by one, stating that
                             the project moved up in rank “ due to denial of [another] application.” The project
                             was funded with a relatively low overall score, and again raises concerns as to why it
                             received funding, given that it scored zeros in all aspects of the first and most critical
                             criterion.




15
  Ninety-five percent of the projects that scored zero for the national priority threat fell into the top two risk tiers. None
of the awarded projects in the lowest risk tier scored zeros for responsiveness to every component of the national priority
threat. In other words, the funded projects in the lower risk tiers scored, on average, higher than those in the top tiers.

                                   Follow Up Review of the Port Security Grant Program

                                                           Page 10
As a result of the grant decision-making policies noted above, these and
other lower ranked projects were funded. A minimum threshold would
reduce the chances of funding lower ranked or questionable projects. In
round five, applicants proposed a total of 543 projects. All 543 projects
were ranked based on their scores. Due to ties, the lowest ranked project
was the 465th project. The program funded 132 projects. Within each tier,
the funded projects contained a variety of scores, tier rankings, and overall
rankings.

                             Table 3: Highlighted Scores by Tier
        Tier    Average Highest           “Cutline” Lowest Overall Rank of
                 Score   Score             Score*    Score Lowest Score**
          I       64.09 116.16               56.63    50.05    249th
          II      96.25 140.59               91.55    50.03    374th
         III     103.59 125.94               93.63    77.24    184th
         IV      102.46   121.7             100.02    81.52    205th
       * This is the score of the last project funded in order of its rank.
       **Overall rank refers to a project’s rank across all tiers, which does not necessarily
       correspond with a project’s rank within a tier.

As a result of skipping projects, many lower ranked projects were funded:

•   In Tier I, the top 36 projects were funded (projects ranked 35th and 36th
    were ranked 259th overall), as was the 47th ranked project (249th overall) in
    that tier. Tier I projects had a far lower average score than in the other
    three tiers, despite the added weight given to those projects for belonging
    to applicants located in the top tier. For example, 31 Tier I projects scored
    lower than the average score for Tier II projects. The overall quality or
    benefits of Tier I projects did not match that of projects in less critical
    tiers, yet the program allocated the largest portion of funds ($42 million)
    to this tier.

•   In Tier II, the top 14 projects were funded, but the next seven funded
    projects were ranked 16th, 18th, 19th, 27th (230th overall), 29th (277th
    overall), 36th (348th overall), and 38th (374th overall). The last project had
    a “preliminary score” of 28, or one of the lowest scores given by
    reviewers. A “preliminary score weights the four criteria and is one of the
    key parts of the project’s total score.

•   In Tier III, the top 48 projects were funded, as was the 50th and 76th ranked
    projects in that tier. A total of 25 projects were skipped to reach the 76th


      Follow Up Review of the Port Security Grant Program

                            Page 11
                             ranked project, including the 56th (70th overall), 58th (66th overall), and 61
                             (86th overall).

                         •   In Tier IV, 24 projects were funded, including the top 17 in that tier.
                             Among the funded projects were the 31st (164th overall) and 50th (205th
                             overall) while several higher ranked projects such as the 48th, 72nd, 73rd,
                             and 79th were not. This tier’s 18th ranked project was ranked 48th overall,
                             but despite the applicant’s 10 percent match, there was not enough funding
                             allocated to this tier to fund the requested grant of $7.9 million.

                         The range of “cutline” scores—56.63 (Tier I) to 100.02 (Tier IV)—is another
                         disparity that could be eliminated by implementing a scoring threshold.

                         With respect to the 20 projects identified above, program officials stated that
                         it was possible and appropriate for a project with a low score in the national
                         threat priority reduction criterion to score highly enough in the three
                         remaining criteria to end up with a high preliminary project score. They also
                         pointed out that most of these projects were in high risk port areas, meaning
                         they received a high port risk score, and this helped those projects rise above
                         their tier’s funding cut line. Officials acknowledged that the lower ranked
                         and funded projects that we identified were the result of skipping projects
                         until a project was found that requested an amount less than the remaining
                         dollars in the tier.

                         GMS revealed some anomalies for awarded projects in the form of
                         incomplete scores or errors in reporting data.16 In most cases, the
                         discrepancies indicated a disconnection between the information provided by
                         the field review team and the information as assessed by the national review
                         team.

                         Examples of inconsistencies in the project evaluation and selection process
                          Grant Recipient C, project #3, security lighting with solar battery back-up, grant
                          $136,000, field review score: 8.
                          The applicant proposed introducing security lighting on a bridge where there was
                          previously no lighting. Field reviewers stated that this project was “not applicable” to
                          and “d[id] not address” the national priority threat. They gave the project zeros for all
                          aspects of this criterion, and a total score of nine. In its database and on the final
                          spreadsheet, the NRP listed the field review scores as five, five, and zero for the first
                          criterion. The panel did not provide any additional comments or explanation for

16
  DHS contracted the administration of the Grants Management System with Booz Allen Hamilton, a global strategy
and technology consulting firm.

                                Follow Up Review of the Port Security Grant Program

                                                      Page 12
 changing these scores. The discrepancies in reported scores and the lack of
 explanation for amending them, particularly because this project was funded despite
 low scores, raises concerns about the integrity of the process.

 Grant Recipient D, project #2, portable generators, grant $3,110, field review score
 15.
 The field review team stated that this portable generator system was intended to power
 the lighting system proposed in a separate project (#1) from the same applicant, and
 that it “should not be approved unless project #1 is also approved.” The project
 received average to moderate scores for most criteria. The NRP agreed with the
 field’s assessment and did not elaborate. Project #1 was rejected, but against the field
 review team’s recommendation, project #2 was awarded. The NRP did not explain
 why it did not heed the field’s recommendation. The fact that portable generators
 were funded, even though the lighting system they would power was not funded, also
 raises concerns about the process.

 Grant Recipient E, project #1, interoperability expansion central dispatch, requested
 but not granted $2,044,240, field review score 25.

 The field review gave this project a high rank and score, and described in detail how it
 would address national and local security priorities, stating that “The layered security
 provided by implementing communication interoperability systems dramatically
 reduces the risk for all these critical infrastructures and enables all local law
 enforcement, as well as Federal and industrial agencies to respond to any potential
 threats or breaches of security.” National reviewers appeared to concur with this
 assessment, and even increased the project’s rank. Given the project’s high rank and
 score, particularly with regard to the weighted national security priorities, it is unclear
 why this project was not funded.


Program officials were reviewing the project anomalies, but did not respond
in time for the issuance of our draft report. We anticipate that their
explanations will show that these are not systemic problems, but they
nonetheless highlight internal control weaknesses that need to be corrected
in the evaluation process.

Documentation of reviewers’ evaluation and decision-making in round five
improved, containing more detail than in rounds two and three. Field and
national reviewers also demonstrated greater consistency in their
assessments and took more care to justify their decisions. Unlike in earlier
rounds, there were fewer instances of the NRP upgrading or downgrading
the field review’s scores without providing any justification. For example,
in one application for floating protective barriers, the national review
downgraded the project scores for national priority threat reduction noting,
“Criteria 1.2 – Prevention [changed from] 5 to 4 – provides good physical

       Follow Up Review of the Port Security Grant Program

                             Page 13
              and visual deterrent, but would not [prevent] larger craft. Detection
              [changed from] 5 to 2 – does not provide any communication that attack is
              imminent.” In this and other examples, the NRP presented its reasoning for
              altering scores.

              However, in some cases reviewer justifications for the rank and score
              assigned to applications still lacked detail. Field reviewers provided sparse
              comments and little insight as to how a project would address critical
              security needs, stating only that they did or did not “recommend funding.”
              NRP members depend on the USCG’s local knowledge and expertise to
              make informed evaluations and funding decisions, and thus the lack of
              explanations from the field could affect their decision-making. Similarly,
              while NRP comments were more evident than in previous rounds, they
              remained thin in cases of non-funded projects. For example, NRP
              explanations for why projects that seemed worthy of funding were not
              funded frequently state, “not funded” or “fell below tier line,” which are not
              informative evaluations. This was not entirely unexpected, given that they
              thought projects falling below the tier line would not be funded.

              Overall, the project evaluation and selection process employed in round five
              demonstrated marked improvement. OGT set forth specific national
              priorities and implemented a risk-based prioritization system. However, the
              practice of funding projects that were not scored as responsive to program
              priorities in order to expend all available funds is a concern. The practice of
              funding projects that reviewers score as marginal continues to be an issue for
              the program. As OGT develops program guidance for round six, it should
              reconsider adopting a minimum score that separates worthy from unworthy
              projects.

Field Reviewers Scored Projects Differently (Prior Report Recommendation
Nos. 6 – 8)
              In rounds two and three, headquarters and field reviewers did not always
              share a common understanding of program objectives or eligibility criteria.
              We recommended that SLGCP develop parameters that define applicant
              eligibility under the “nationally important economic port or terminal,”
              “responsible for movement of a high number of passengers,” and
              “responsible for the movement of hazardous cargo” criteria; communicate
              information to field reviewers to educate them on eligibility and improve
              dissemination of “lessons learned” at all levels of review; and evaluate
              timeframes for reviewing applications with an emphasis on providing more

                    Follow Up Review of the Port Security Grant Program

                                         Page 14
                           time for review in the field and by the Executive Review Board (ERB). We
                           closed those recommendations because SLGCP was (1) working with IAIP
                           and USCG to develop clearly defined parameters for port eligibility, (2)
                           developing enhanced guidance on eligibility guidelines using lessons learned
                           from previous rounds, and (3) developing a more efficient process for
                           vetting projects, which included eliminating one level of review (the ERB).

                           In round five, OGT evaluated the nation’s 129 largest volume ports using a
                           risk-based formula that analyzed a port’s consequence, vulnerability, and
                           threat.17 Based on this evaluation, the program identified 66 eligible port
                           areas. OGT identified eligible applicants as: (1) owners/operators of
                           federally regulated public or private ports, terminals, U.S. inspected
                           passenger vessels, or ferries; (2) port authorities, and/or State and local
                           agencies that provide layered security protection to federally regulated
                           entities; and (3) consortia composed of local stakeholder groups representing
                           federally regulated ports, terminals, U.S. inspected passenger vessels, or
                           ferries.18 Program administrators communicated eligibility requirements to
                           the field review teams, improving field-level knowledge of application
                           prerequisites.19 The newly-instituted eligibility requirements eliminated the
                           previous confusion resulting from poorly defined eligibility criteria, such as
                           whether an applicant represented a nationally critical port.

                           Subjectivity remains inherent in this process, which relies heavily upon the
                           judgment of the field reviewers. As a result, disparities existed between
                           project scores submitted by field review teams in various ports, suggesting
                           that they are not assessing projects equally. For example, the Houston port
                           area project scores ranged from 9 (lowest) to 30 (highest). In the same port
                           risk tier, the New York/New Jersey port area project scores ranged from a
                           low of 3 to a high of 17. This disparity in project scores for like-port areas
                           (in terms of risk) raises concerns about the basis for field review scores and
                           how reviewers are judging projects against the criteria. The accompanying
                           explanations for reviewer scores in the field evaluation sheets were
                           straightforward and did not provide any information that could explain the
                           differences. We did not conduct a project-by-project analysis to determine
                           whether the reviewers were using similar approaches to scoring.

17
   Program Highlights: FY 2005 Port Security Grant Program. For the purposes of this formula, “consequence”
considered “people, economic, national security, and port-specific special considerations (hazardous materials, oil).”
“Vulnerability” considered “the distance from open water, number of port calls, and presence of tankers.” “Threat”
included credible threats and incidents, less credible threats and incidents, and vessels of interest information.
18
   Program Highlights: FY 2005 Port Security Grant Program.
19
   Port Security Grants – Round 5 Program Guidance Document (For U.S. Coast Guard Field Evaluators/Reviewers)

                                  Follow Up Review of the Port Security Grant Program

                                                         Page 15
              The revised evaluation and selection process saved time. The elimination of
              the ERB removed a layer of review and improved timeframes from previous
              rounds. On the other hand, these modifications did not ensure that reviewers
              would include necessary commentary and justifications for
              recommendations on the applications. Program administrators should
              continue to enhance the standardization of field review scoring methodology
              and take steps to ensure that field and national reviewers will provide
              detailed explanations in the future. Finally, program administrators should
              implement an internal quality assurance review, or “pre-audit” – possibly by
              a grants administrator not directly involved in the program – to help prevent
              project anomalies in the future and ensure the program’s credibility.

Private Sector Policy Should Address Prudence of Funding Certain Projects
(Prior Report Recommendation No. 9)
              Another dilemma confronting the program related to the circumstances
              under which private entities might obtain grant funding. DHS did not have a
              formal policy to govern financial assistance to private entities, including
              those that own and operate high-risk port facilities. Many grants to private
              companies were for basic security measures that should have been
              considered as normal costs of doing business, and some were within their
              financial means. We recommended that SLGCP clarify its policy on funding
              private sector projects. In the absence of such policy, and if funding private
              sector projects is continued, we recommended that SLGCP: (a) examine
              private sector projects to preclude the funding of cost of business expenses;
              (b) develop financial eligibility criteria, including an income test or cost-
              benefit analysis; and (c) consider giving greater preference to projects that
              are submitted jointly by private and public entities.

              We closed this recommendation because SLGCP said it would implement
              two significant changes. First, it announced that it would require a 50
              percent cash match, thereby securing a greater commitment from companies
              while also demonstrating a willingness to help pay for costs to comply with
              MTSA. Second, it rendered Fortune 500 companies ineligible in round four.
              As a result, grant awards to private companies in that round totaled $6.3
              million, the lowest amount of any round.

              OGT implemented this policy in round five. Private companies proposed
              fewer projects than public entities, and received $8.2 million. However, the
              presence of a matching requirement does not fully address the question of

                    Follow Up Review of the Port Security Grant Program

                                         Page 16
              whether DHS will consider the prudence of funding certain private sector
              projects. The program restored eligibility for Fortune 500 companies in round
              five, placing less emphasis again on the company’s financial condition.
              Round five contained far fewer questionable grants like the ones we
              previously reported, but the program has not ceased this practice altogether.
              For example, a Fortune 500 refinery received a port security grant in round
              five totaling almost $1 million for fencing and surveillance upgrades at a
              refinery located in a major port. It did put up the same amount in matching
              funds. This company recently reported 3rd quarter net income in excess of
              $1.2 billion. We remained concerned about the absence of more specific
              guidance on security measures proposed by private companies that are capable
              of paying for them, and what measures they should pay for.

              Also, there is the question of how well the project matches program criteria.
              The program is supposed to identify projects that address national port
              security priorities and provide security enhancements that are most likely to
              help sustain overall port operations. Private sector projects can score poorly
              against these criteria but well enough on the local security priority criteria to
              receive funding. In the case above, the risk factor of the port where the
              project was located helped the project’s overall ranking during the
              evaluation process. Of the 20 projects that received zeros in the national
              threat priority criteria, 12 were private sector projects. They received
              enough points in other criteria to receive funding totaling $4.2 million.

              Should DHS elect not to reconsider using financial criteria, it should at least
              require companies and public entities to demonstrate how their own security
              investments would be leveraged by a federal grant.

Balance of Unspent Funds is Declining (Prior Report Recommendation
Nos. 10, 11)
              As of September 30, 2004, grant recipients had spent only a small portion of
              their awards. Of the $515 million awarded between June 2002 and
              December 2003, including the $75 million provided in DHS’ Urban Area
              Security Initiative, grant recipients had expended only $107 million, or
              21 percent. We determined that many of the recipients were simply not
              prepared to put their grant funds to use and DHS did not have sufficient
              resources to monitor the progress—or lack thereof—of individual projects.
              We recommended that SLGCP accelerate the acquisition of more information
              from applicants about the scope of their projects and ensure that the program
              has sufficient operational expertise to administer the program after the award

                    Follow Up Review of the Port Security Grant Program

                                         Page 17
            is made. We subsequently closed these recommendations because of ongoing
            efforts to update the guidance for applicants, and planned creation of the
            Transportation Infrastructure Security Division within SLGCP.

            Our recommendations were designed to address factors contributing to slow
            spending. Round five will be the first round to fully benefit from DHS’
            actions. SLGCP issued the FY2005 Port Security Program Guidelines and
            Application Kit, which contained specific directions for applicants including
            information required in the project narrative, individual project plan, and
            detailed budgets. Compared to our observations of rounds two and three,
            round five reviewers noted far fewer concerns in GMS about the scope and
            cost of projects. Of the 43 project files we reviewed in depth, none revealed
            that the applicant provided insufficient information about scope and cost.

            Program officials extended project periods to 30 months in round five,
            because several entities received awards in more than one round.
            Administrators should monitor entities that receive multiple grants or have not
            drawn down any funds. A total of 20 round two projects totaling $13.7
            million and 32 round three projects totaling $35.8 million have not drawn
            down any of their funds. To that end, six TSA personnel were transferred to
            OGT to help staff its Transportation Infrastructure Security Division and
            oversee the program. Despite these projects, the balance of unspent funds has
            declined since our first report, even when taking into consideration round
            four. At the time of our report, the balance of unspent funds for the first three
            rounds was $347.4 million. Today, the balance is $179.5 million, or $222.3
            million including round four.


Recommendations
            DHS has worked to address the issues we raised in our January 2005 report.
            However, our follow up review suggests that there are additional actions that
            DHS should take to continue to improve the administration and effectiveness
            of the program. Accordingly, we recommend that the Under Secretary for
            Preparedness:

            1. Establish a minimum threshold under the new selection and evaluation
               process that projects must meet to become eligible for funding. Funding
               in the top three tiers not used as a result of implementing a minimum
               threshold should be reallocated to a lower tier.


                  Follow Up Review of the Port Security Grant Program

                                       Page 18
             2. Modify the Grants Management System (GMS) to require National
                Review Panel (NRP) members to enter a reason for adjusting a field
                review score.

             3. Seek more consistent scoring by field reviewers.

             4. Conduct a “pre-audit” of proposed grant award decisions.

             5. As a condition of receiving a grant, require private sector applicants to
                demonstrate how a federal grant would enhance their own security
                investments.


Management Comments and OIG Analysis

             We issued our draft report on January 6, 2006. Below is a summary of DHS’
             response to our recommendations, and our analysis of the response. A copy
             of DHS’ response in its entirety is recorded in Appendix B.

             Recommendation 1: Establish a minimum threshold under the new
             selection and evaluation process that projects must meet to become
             eligible for funding. Funding in the top three tiers not used as a result of
             implementing a minimum threshold should be reallocated to a lower tier.

             DHS is still considering whether to implement a minimum score threshold for
             projects to receive funding. DHS stated that the program must take into
             account that even if a project in a lower risk tier receives a high score, this
             must be balanced against the fact that a project in a higher risk tier receiving a
             lower individual score may still achieve greater overall risk reduction.
             Finally, DHS believes that the lack of responsiveness to the national priority
             threat was a result of some ports’ poor understanding of the national priority
             threat requirement and its impact on application rank, and stated that enhanced
             guidance in round six will better explain this emphasis.

             Since DHS is still considering whether to implement a threshold, we consider
             the recommendation unresolved and open. In round five, the program
             improved the process of allocating funds based on risk, and we agree that
             enhanced guidance may improve responsiveness of project applications to the
             national priority threat. However, improving guidance and emphasizing the
             national priority threat does not fully address the problem of lower-scored
             projects receiving awards. We believe that comparing project scores across

                   Follow Up Review of the Port Security Grant Program

                                        Page 19
tiers is fair and prudent, as relative port risk scores are already accounted for
in the formula that generates a project’s individual final score. We will await
additional information from OGT regarding how it intends to ensure that low
scoring projects do not continue to receive funding.

Recommendation 1 – Unresolved – Open

Recommendation 2: Modify the Grants Management System (GMS) to
require National Review Panel (NRP) members to enter a reason for
adjusting a field review score.

DHS agreed that in round five the review process did not fully document NRP
comments and justifications for award decisions, and stated that OGT will
allow panel members to denote this information in OGT’s portal. DHS stated
that OGT would additionally enable reviewers to access the project
applications prior to convening the NRP, so that panelists may more
completely represent their perspectives.

We recognize that OGT is poised to make the NRP’s responsibility to
document its decisions even more transparent in round six. However, we feel
that OGT’s proposed actions fall short of requiring that NRP members
provide the reasons for their decisions. Allowing panelists the ability to
capture their notes in the portal does not ensure that they will do so
sufficiently to record the justifications for granting or denying awards. The
relevant fields for such comments already existed in the round five review
process, yet in some cases NRP members still did not utilize these fields to
provide details on the reasons for their decisions. DHS should require
panelists to provide justifications for its award decisions and demonstrate that
the system enforces this requirement.

Recommendation 2 – Unresolved – Open

Recommendation 3: Seek more consistent scoring by field reviewers.

DHS agreed that it is necessary to ensure more consistency in the field review.
DHS stated that OGT is revising round six program guidance to enhance the
consistency of the field review scoring process with additional examples,
templates, and guidance. This effort will be augmented by teleconferences
during the review period to focus on requirements and expectations.




      Follow Up Review of the Port Security Grant Program

                           Page 20
We concur that improved program guidance and direction to field reviewers
will encourage consistency in the process. We request that OGT provide us
with the Field Review Guidance for round six in order to satisfy our
expectation that the revisions promote improved consistency across the field
review.

Recommendation 3 – Resolved – Open

Recommendation 4: Conduct a “pre-audit” of proposed grant award
decisions.

DHS recognized that the manual process of administering the program
requires improvement. DHS stated that OGT is exploring information
technology enhancements to automate the NRP and field review scoring
processes, and the process used to generate the final list of projects to be
funded. DHS advised that these changes would increase accuracy of the
reported data through the review process, and enable OGT to analyze and
convey program data to senior officials.

We concur that, if implemented at each level of the review, automation of the
scoring and data transfer systems as described by DHS will reduce the
likelihood of, and opportunity for, errors. We look forward to the execution
of these technological enhancements, and ask that OGT share them with us
once they have been implemented.

Recommendation 4 – Resolved – Open

Recommendation 5: As a condition of receiving a grant, require private
sector applicants to demonstrate how a federal grant would enhance their
own security investments.

DHS stated that in round six the program will require all applicants to exhibit
the impact of conducting or not conducting the proposed project, based on risk
data relative to the targeted security measure. DHS stated that this
demonstration of project merit will enable the program to award projects with
the greatest opportunity for risk reduction and measure the impact of an award
in terms of buy down of risk.

While we agree that all applicants should be required to discuss the
opportunity costs of their proposed projects, DHS’ response does not indicate
whether private sector applications will undergo greater scrutiny. Instituting


      Follow Up Review of the Port Security Grant Program

                           Page 21
this opportunity cost requirement, which calls upon applicants to demonstrate
project merit, might address part of our concern about the prudence of funding
certain private sector projects, but more information is needed. We request
that OGT clarify what information it will seek regarding opportunity costs,
how the cost data will account for other company security measures, and how
those investments would be leveraged by receiving the grant.

Recommendation 5 – Unresolved – Open




      Follow Up Review of the Port Security Grant Program

                           Page 22
Appendix A
Purpose, Scope, and Methodology




In October 2005, Congress directed the Inspector General to review the steps
DHS took to comply with the 12 recommendations contained in the OIG’s
January 2005 report, Review of the Port Security Grant Program (OIG-05-
10). In response, our office examined the effect of DHS’ implementation of
the recommendations in preparation for round five of the program. Because
of the timing of our first review, we did not include round four in it or in our
follow up review.

In order to assess the changes DHS made for round five, our office revisited
the Port Security Grant Program’s strategic goals and objectives and how the
grants served to protect national critical infrastructure. We reviewed
numerous documents including:

    •    The FY2005 Port Security Grant Program Resource Binder.
    •    The port risk formula, which led to the selection of the 66 eligible
         ports and tiering methodology.
    •    The funding distribution model that determined the allocation of funds
         to each tier.
    •    Changes to the eligibility criteria.
    •    The Grant Application Kit.
    •    Guidance for field and national reviewers.
    •    Field review score sheets for the majority of the applications.
    •    Each port area’s list of ranked projects.
    •    The final scoring system, which incorporated IP data and priority
         adjustments to produce the final project ranks.
    •    Current reports on the status of funds for the first four rounds.

Additionally, we scrutinized the quantified results of all funded and non-
funded projects. We reviewed 43 projects in greater detail by examining
documents submitted by the applicants, specific comments by field and
national reviewers, and tracking project scores through the scoring system.
We carried out a significant portion of our project review by viewing
electronic files in OGT’s Grants Management System, the National Review
Panel’s internal database, and via OGT’s intranet portal at OGT headquarters
in Washington, DC.

We discussed the redesign, management, and oversight of the program with
officials from the Office of Grants and Training, the Office of Infrastructure
Protection, and the U.S. Coast Guard. We assessed the coordination between
the OGT’s program administrators and IP. We also met with a representative

        Follow Up Review of the Port Security Grant Program

                             Page 23
Appendix A
Purpose, Scope, and Methodology




from Digital Sandbox, the contractor who developed the new scoring and
ranking system.

We conducted our review between September 2005 and December 2005 under
the authority of the Inspector General Act of 1978, as amended, and according
to the Quality Standards for Inspections issued by the President’s Council on
Integrity and Efficiency.




      Follow Up Review of the Port Security Grant Program

                           Page 24
Appendix B
Management Response to Draft




      Follow Up Review of the Port Security Grant Program

                           Page 25
Appendix B
Management Response to Draft




      Follow Up Review of the Port Security Grant Program

                           Page 26
Appendix B
Management Response to Draft




      Follow Up Review of the Port Security Grant Program

                           Page 27
Appendix B
Management Response to Draft




      Follow Up Review of the Port Security Grant Program

                           Page 28
Appendix C
Recommendations from OIG Report #OIG-10-05




We recommended that the Executive Director, Office of State and Local
Government Coordination and Preparedness:

Recommendation #1: Determine to what extent the program should
incorporate MTSA requirements.

Recommendation #2: Incorporate critical infrastructure and key asset data
from IAIP into the evaluation of proposed port security projects. Among the
changes to consider:
    • The addition of an IAIP official on the Executive Review Board;
    • Use of the IAIP national asset database to identify critical facilities in
       need of mitigation with a view toward soliciting proposals from these
       facilities; and
    • Collaborating with IAIP in an outreach program to improve the
       quality of vulnerability assessments and proposals.

Recommendation #3: Consider changing the weighting of the evaluation
criteria, with greater emphasis placed on the criteria that reduce critical
vulnerabilities.

Recommendation #4: Cease the practice of funding projects that do not meet
the definition of a Priority I project. Consider implementing a scoring
threshold that ensures that projects not meeting that threshold are not funded.
Consider seeking a change in appropriations language to have these grant
funds designated as “no-year monies” to reduce the impetus to fund doubtful
projects.

Recommendation #5: Require reviewers to document their decisions in the
grants management system, particularly when they are inconsistent with
recommendations from a lower level of review.

Recommendation #6: Develop parameters that define applicant eligibility
under the “nationally important economic port or terminal,” “responsible for
movement of a high number of passengers,” and “responsible for the
movement of hazardous cargo” criteria.

Recommendation #7: Communicate information to field reviewers to educate
them on eligibility. Improve dissemination of “lessons learned” at all levels of
review.




      Follow Up Review of the Port Security Grant Program

                           Page 29
Appendix C
Recommendations from OIG Report #OIG-10-05




Recommendation #8: Evaluate timeframes for reviewing applications with
an emphasis on providing more time for review in the field by the ERB.

Recommendation #9: Clarify department policy on funding private sector
projects. In the absence of such policy, and if funding private sector projects is
continued: (1) examine private sector projects to preclude the funding of cost
of business expenses; (2) develop financial eligibility criteria, including an
income test or cost-benefit analysis; and (3) consider giving greater preference
to projects that are submitted jointly by private and public entities.

Recommendation #10: Accelerate the acquisition of more information from
applicants about the scope of their projects.

Recommendation #11: Ensure that the program has sufficient operational
expertise to administer the program after the award is made.

Recommendation #12: Seek clarification on the legislative intent for the
program (sector-specific vs. larger infrastructure protection initiatives) and
construct a unified program (policy, purpose, process, and eligibility) to
comply with that intent.




      Follow Up Review of the Port Security Grant Program

                           Page 30
Appendix D
Major Contributors to This Report




William J. McCarron, Chief Inspector
Razili K. Datta, Inspector




       Follow Up Review of the Port Security Grant Program

                            Page 31
Appendix E
Report Distribution




Department of Homeland Security

Secretary
Deputy Secretary
General Counsel
Chief of Staff
Assistant Secretary, Policy
Executive Secretariat
Under Secretary, Preparedness
Assistant Secretary, Office of Grants and Training
Audit Liaison, Office of Grants and Training
DHS OIG Liaison
Audit Liaison, Preparedness
DHS Public Affairs
Assistant Secretary, Office of Legislative Affairs

Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress

House Committee on Appropriations
Senate Committee on Appropriations
Senate Committee on Commerce, Science, and Transportation
Senate Committee on Homeland Security and Government Affairs
House Committee on Homeland Security




       Follow Up Review of the Port Security Grant Program

                            Page 32
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to Department of
Homeland Security, Washington, DC 20528, Attn: Office of Inspector
General, Investigations Division – Hotline. The OIG seeks to protect the
identity of each writer and caller.
